July 30, 2009

ROSS PHILO
VICE PRESIDENT, CHIEF INFORMATION OFFICER

ROBERT J. PEDERSEN
TREASURER

SUBJECT: Audit Report – Disaster Recovery Capabilities of the
         Enterprise Payment Switch (Report Number IS-AR-09-009)

This report presents the results of our audit of the disaster recovery capabilities of the
Enterprise Payment Switch (Project Number 09RG012IS000). This is the last in a
series of reports issued in response to the October 2005 Value Proposition Agreement
between the U.S. Postal Service and the U.S. Postal Service Office of Inspector
General (OIG). The OIG audits focused on evaluating the security of the Enterprise
Payment Switch solution to verify that routing and storage of customer information are
secure within the Postal Service systems. The objective of this audit was to determine
whether disaster recovery capabilities of the Enterprise Payment Switch are in place
and effective. See Appendix A for additional information about this audit.

Conclusion

Overall, the disaster recovery capabilities of the Enterprise Payment Switch are in
place. However, management can improve its ability to recover the Enterprise Payment
Switch by fulfilling requirements consistent with Postal Service policy, developing a
comprehensive application disaster recovery plan (ADRP), and performing full
operational recovery testing. If management does not address these weaknesses, it
cannot assure recovery of the Enterprise Payment Switch in the event of a catastrophic
disaster, which could affect the Postal Service brand. We will report the non-monetary
impact (preserving the integrity of the Postal Service brand) in our Semiannual Report
to Congress.
Disaster Recovery Capabilities of the                                                          IS-AR-09-009
 Enterprise Payment Switch



Disaster Recovery Plan

The Postal Service does not have a comprehensive ADRP in place for the Enterprise
Payment Switch as required.1 This occurred because Business Continuance
Management (BCM) accepted the testing strategy document as the disaster recovery
plan to reduce the documentation burden on the development community. In addition,
management did not provide an ADRP template for the development community to use
as a guide. A comprehensive ADRP2 increases management’s ability to recover the
application in the event of a catastrophic disaster. See Appendix B for our detailed
analysis of this issue.

We recommend the Manager, Information Technology Computing Services, direct the
Manager, Business Continuance Management, to:

1. Develop an application disaster recovery plan template and make it available to the
   development community.

We recommend the Manager, Business Continuance Management, and the Program
Manager, Enterprise Payment Switch, collaborate to:

2. Create a comprehensive application disaster recovery plan for the Enterprise
   Payment Switch solution.

Management’s Comments

Management agreed with the recommendations, but did not comment on the non-
monetary impact (preserving the integrity of the Postal Service brand).

In response to recommendation 1, management stated that the current Handbook AS-
 805 (dated June 30, 2009) does not require the use of a template or ADRP testing.
The Manager, BCM, will review and update the handbook to reflect new documentation
requirements and make it available to the development community. The targeted date
for completion is December 1, 2009.

In response to recommendation 2, management stated the Manager, BCM, would use
the former ADRP template to update the Enterprise Payment Switch solution. The
targeted date for completion is September 1, 2009. See Appendix C for management’s
comments in their entirety.


1
   Handbook AS-805, Information Security, dated March 2002 (updated with Postal Bulletin revisions through
November 23, 2006). Management released a new version of the handbook on June 30, 2009, that significantly
reduced the level of disaster recovery requirements.
2
  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxx.




                                                     2
Disaster Recovery Capabilities of the                                         IS-AR-09-009
 Enterprise Payment Switch



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues identified in the report.

Full Operational Recovery Testing

Management did not conduct a full operational recovery test for the Enterprise Payment
Switch. Although they performed initial Enterprise Payment Switch testing,
management delayed full operational recovery testing until after the developers
implemented xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxx. Without comprehensive operational recovery testing, management risks delays
in xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx should disaster recovery become
necessary. xxxxxxxxxxxxxxxxxxx could create customer dissatisfaction and negatively
affect the Postal Service brand. See Appendix B for our detailed analysis of this issue.

Corrective Action Taken

Management performed a full operational recovery test of the Enterprise Payment
Switch between April 29 and May 6, 2009 that included tests of the xxxxxxxxxxxxx
xxxxxxxxxxxx. We verified management’s actions during the audit; therefore, we are
not making a recommendation regarding this issue.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed. We will report the non-monetary impact
(preserving the integrity of the Postal Service brand) in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, Director,
Information Technology, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems




                                           3
Disaster Recovery Capabilities of the       IS-AR-09-009
 Enterprise Payment Switch


Attachments

cc: Robert J. Wolter
    George W. Wright
    Charles L. McGann
    Katherine S. Banks
    William P. Harris




                                        4
Disaster Recovery Capabilities of the                                                               IS-AR-09-009
 Enterprise Payment Switch


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In calendar year 2008, the Postal Service processed more than 323 million debit and
credit card transactions totaling more than $10.8 billion, including transactions
originating at traditional post offices, self-service centers, and the Internet; as well as
mail and telephone orders. To meet updated performance, reliability, flexibility, and cost
objectives associated with debit and credit card transaction processing, the Postal
Service developed the Enterprise Payment Switch solution. This solution encompasses
new software applications and more than 20 pre-existing Postal Service and vendor
systems designed to work together to provide a secure processing environment for
nearly all debit and credit card transactions. The Business Impact Assessment
classifies the Enterprise Payment Switch as xxxxxxxxxxxxxxxxxxxxxx. The Enterprise
Payment Switch supports a broad range of electronic payment types including, but not
limited to, credit card, debit card, stored value, checks, and Internet payments.

To address the Value Proposition Agreement objective, we accomplished the project in
multiple phases and provided recommendations in four prior audit reports:3

       Phase I: Requirements and Design.
       Phase II: Preparation for Security Testing.
       Phase III: Security Testing.

The objective of Phase III included an evaluation of disaster recovery capabilities.
However, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. As a result, the OIG deferred an audit of disaster
recovery capabilities for the Enterprise Payment Switch to provide the Postal Service an
opportunity to xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. This audit
report presents the results of Phase IV of the audit.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether disaster recovery capabilities of the
Enterprise Payment Switch are in place and effective. To accomplish our objective we
reviewed documentation and applicable policies and procedures, and interviewed key
officials assigned to the Information Technology Operations Portfolio and Corporate
Treasury functions. We also examined other materials we deemed necessary. In
addition, we reviewed the Payment Switch testing strategy,4 architectural diagram, test
plans and results, and other information pertinent to the audit objective.



3
 See Prior Audit Coverage for details of the reports and results.
4
 Enterprise Payment Switch Security/Failover/Disaster Recovery Testing Strategy, Version 0.19, dated August 2,
2007.




                                                        5
    Disaster Recovery Capabilities of the                                        IS-AR-09-009
     Enterprise Payment Switch


    We conducted this performance audit from February through July 2009 in accordance
    with generally accepted government auditing standards and included such tests of
    internal controls, as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe the evidence obtained provides a reasonable basis for our
    findings and conclusions based on our audit objective. We did not rely on computer-
    generated data to support our audit findings. We discussed our observations and
    conclusions with management on July 6, 2009, and included their comments where
    appropriate.

    PRIOR AUDIT COVERAGE

                               Report
    Report Title               Number        Final Report Date           Report Results
Enterprise Payment          IS-AR-06-017    September 27, 2006   Management was designing
Switch Solution                                                  and developing the Payment
Phase I:                                                         Switch solution with security
Requirements and                                                 as a priority. However, we
Design                                                           xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 Management concurred with
                                                                 the findings and
                                                                 recommendations.
National Customer           IS-AR-07-006    December 26, 2006    While conducting the Phase II
Management System                                                review, we xxxxxxxxxx
Encryption                                                       Xxxxxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxxxxx
                                                                 Xxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxx Management
                                                                 concurred with the findings
                                                                 and recommendations.




                                                 6
    Disaster Recovery Capabilities of the                                        IS-AR-09-009
     Enterprise Payment Switch



                               Report
     Report Title              Number        Final Report Date            Report Results
Enterprise Payment          IS-AR-07-007    February 23, 2007    Although the Postal Service
Switch Solution                                                  was developing the Payment
Phase II: Preparation                                            Switch with security as a
for Security Testing                                             priority, management xxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxx We provided
                                                                 three recommendations to
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxx. Management
                                                                 concurred with the findings
                                                                 and recommendations.
Enterprise Payment          IS-AR-08-004    February 6, 2008     Management deployed the
Switch Solution                                                  Payment Switch solution in
Phase III: Security                                              limited production xxxxxxx
Testing                                                          xxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxx.
                                                                 Management also xxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxxxx
                                                                 xxxxxxxxxxxxxxxxxx
                                                                 Management concurred with
                                                                 the findings and
                                                                 recommendations.




                                                  7
Disaster Recovery Capabilities of the                                                             IS-AR-09-009
 Enterprise Payment Switch


                               APPENDIX B: DETAILED ANALYSIS

Disaster Recovery Plan

Rather than developing an ADRP for the Enterprise Payment Switch, the BCM and
application administrators informally agreed to use the test strategy as the disaster
recovery plan.

According to Handbook AS-805 in place at the time we performed the audit fieldwork,5 a
disaster recovery plan must be created for all critical and business controlled criticality
information resources. The handbook also states that an ADRP template is available
on the Information Technology website. Although we could not confirm whether the
template was available when management tested the Payment Switch application, we
confirmed that the ADRP template is currently unavailable.

On June 30, 2009, subsequent to our fieldwork, management released a new version of
handbook AS-805. Although the handbook no longer requires management to develop
an ADRP, we believe doing so is imperative to ensure immediate and full recovery of
this critical application in the event of a disaster.6

We compared the testing strategy to other Postal Service disaster recovery plans7 and
identified several key attributes that were missing from the testing strategy. While the
Payment Switch testing strategy addressed the disaster recovery testing objective,
scope, environment, components, and testing approach, it did not include key elements
of a comprehensive disaster recovery plan, such as:

    1. Roles and responsibilities
          a) Point of contact list (primary and secondary)
          b) Recovery assessment team

    2. Service restoration requirements
          a) Disaster recovery components
          b) Additional disaster recovery requirements

    3. Recovery consideration
         a) Level of emergency
         b) Timing of event
         c) Priority recovery listing




5
  Chapter 12, Disaster Recovery Planning, Section 12-5.1.
6
  We plan to incorporate a review of the updated version of Handbook AS-805 in a future audit.
7
  Host Computing Services Disaster Recovery Plan, Section 4.2.2 Procedures Mainframe – xxxxxxxxxxxxxxxxxx,
Version 1.0, dated September 12, 2008 and Business Information Systems Disaster Recovery Plan, Version 1.0,
dated October 1, 2007




                                                       8
Disaster Recovery Capabilities of the                                           IS-AR-09-009
 Enterprise Payment Switch



       4. Plan maintenance history

       5. Reporting and documentation
            a) Disaster recovery status report
            b) Assessment and lessons learned report

       6. Checklist for disaster recovery configurations

Full Operational Recovery Testing

Management did not perform a full operational recovery test of the Enterprise Payment
Switch application. According to Handbook AS-805,8 management must test the ADRP
for critical and business-controlled criticality applications within 180 days of placing an
application into production. In addition, management must perform a full operational
recovery test of the disaster recovery plan for critical applications every 18 months.
However, management xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxx the Payment Switch.

In the testing strategy, management xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. We confirmed these servers are
now installed and functioning at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Although the BCM intended to test the xxxxxxxxxxxx, our review prompted the BCM to
expedite full operational recovery testing of the Enterprise Payment Switch application.
In May 2009, the BCM and application administrators completed a full operational test.
The application passed the testing requirements.




8
    Chapter 12, Section 12-5-2.1 (c) and (d).




                                                9
Disaster Recovery Capabilities of the                       IS-AR-09-009
 Enterprise Payment Switch


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                        10
Disaster Recovery Capabilities of the        IS-AR-09-009
 Enterprise Payment Switch




                                        11
